                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



May 14, 2012

James R. Dalrymple, LP 2T-C

FINAL REPORT – EVALUATION 2011-14057 – SAFETY OF GAS LINE AND GAS
PLANT OPERATIONS



In light of recent gas-related explosions in the utility industry, we conducted a review of
Tennessee Valley Authority’s (TVA) safety of gas line and gas plant operations. In 2011,
TVA announced it will close 18 older coal-fired generator plants by 2020 as part of a court
settlement for violating the Clean Air Act. As the coal plants are phased out, one of the
ways TVA will replace the coal-fired generator plants is with modern natural gas power
plants. According to the Natural Gas Alliance, natural gas can play a significant role in
helping TVA meet its goal in becoming one of the nation’s leading providers of low-cost
and cleaner energy by 2020. With TVA’s increased dependence on gas-fired plants, we
initiated a review to determine if TVA has taken appropriate steps to identify and mitigate
risk associated with the operation of gas plants and gas lines.

In the United States, there have been more than 2,800 significant gas-pipeline accidents
recorded since 1990 with one-third causing deaths or significant injuries. During a
6-month period from September 2010 to March 2011, there were three massive gas-
pipeline explosions. These explosions took place in San Bruno, California; Philadelphia,
Pennsylvania; and Allentown, Pennsylvania. These explosions destroyed entire
neighborhoods, caused dozens of injuries, and killed 14 people.

The vast majority of gas-related explosions were gas line related. According to TVA
personnel, TVA is not responsible for gas until it reaches the reducing stations1 on TVA
property. This significantly decreases TVA’s risk of a gas-related incident. We did identify
two explosions that occurred at gas plants due to improper commissioning. On February 7,
2010, there was an explosion at the Kleen Energy power plant in Middletown, Connecticut,
that caused six deaths and multiple injuries. On June 9, 2009, there was an explosion at
the ConAgra Foods Slim Jim plant in Garner, North Carolina, that killed four workers and
caused 67 injuries. In both instances, fuel gas was used to clean or purge gas pipes of
debris, air, or other substances. TVA has taken steps to mitigate this risk by using
compressed air instead of gas to clean or purge gas pipes.




1
    A reducing station is used to reduce the amount of gas pressure from the supplier and filter out
    unnecessary particles.
      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
Jam
  mes R. Dalryymple
Pagge 2
Maay 14, 2012



As part of TVA’s Risk Management pro       ogram, the oorganization has identifieed asset
perrformance vu  ulnerability. Asset perfoormance vuln  nerability impacts TVA’ss ability to prrovide
powwer when there is a dem    mand. The risk for assett performancce vulnerability is driven by
equuipment-failu ure-related inncidents tha
                                          at cause forcced-outage e  events and p
                                                                                planned-outa   age
exttensions of significant
                s            du
                              uration. Acccording to TVVA’s Risk Ma  anagement program, the     e
sevverity for ass
                set performa  ance vulneraability is mod
                                                       derate. TVA  A has mitigate
                                                                                 ed these riskks by
(1) utilizing the critical sparres program to obtain keey-replacement components to redu      uce
forc
   ced-outage time,
                 t      (2) rep
                              placing compponents duri ng planned outages as allowed by tthe
buddget, and (3) developing   g a preventative-mainten nance progra  am with the Electric Pow wer
Research Instittute.

In addition,
   a         TVA
               A has completed the dra aft of a Natu
                                                   ural Gas Pipiing System M Managemen   nt
maanual. This manual
               m       prov
                          vides the prim
                                       mary standa ards and metthodology re equired for th
                                                                                         he
commmissioningg, maintenannce, and inte
                                      egrity manag gement of na atural gas piping system
                                                                                       ms
fou
  und at TVA foossil power group
                           g      prope
                                      erties. The NNatural Gas Piping System Manage     ement
maanual also inc
               cludes emerrgency-respo onse informa              event a natu
                                                    ation in the e          ural gas
em
 mergency doe  es occur. Thhe manual iss expected tto be finalize           mmer of 2012.
                                                                ed in the sum

Thiis report doe
               es not includ
                           de any recom
                                      mmendationss and is to b            nformationall
                                                             be used for in
purrposes only. Accordingly, no responnse is necesssary.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee informationn in this repo
                                        ort that you rrecommend be withheld  d.

                        -       -        -       -       -       -

If you
   y have any   y questions, please conttact Michael L. Lane, Au uditor, at (42
                                                                              23) 785-48166 or
Gre            on, Director, Evaluations, at (423) 78
    eg R. Stinso                                    85-4867. We   e appreciatee the courtessy
and d cooperatio
               on received from
                            f    your sta
                                        aff during th is review.



Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

MLLL:FAJ
cc: Micheal B. Fussell, WT T 9B-K
    Kimberly S.
              S Greene, WT
                         W 7B-K
    Peyton T. Hairston, Jrr., WT 7B-K
    Joseph J. Hoagland, WTW 7B-K
    Tom Kilgore, WT 7B-K K
    Richard W.
             W Moore, ET T 4C-K
    Emily J. Reynolds,
             R         OCCP 1L-NST
    Robert B. Wells, WT 9B-K
                         9
    OIG File No.
             N 2011-140   057


                               TVA REST
                                      TRICTED INF
                                                FORMATION
